                                                 Memorandum
                                                  OFFICE OF THE INSPECTOR GENERAL
               WASHINGTON, DC 20401




   DATE:    March 31, 2005

REPLY TO
 ATTN OF:   Joseph Verch, Supervisory Auditor

SUBJECT:    Report on the Follow-up Audit of the Cash Management Services
            Concerning the Receipt and Deposit of Cash Transactions

      To:   Chief Financial Officer
            Comptroller

            Attached are the results of an Office of Inspector General (OIG) follow-up
            audit of the Comptroller’s Cash Management Services concerning the
            receipt and deposit of cash transactions from October 2004 through
            February 2005. We found that the Chief, Cash Management Services, had
            taken corrective action to improve the policies and procedures in providing
            reasonable assurance and safeguards against waste, loss, and
            unauthorized access concerning the receipt and deposit of cash
            transactions as recommended in Audit Report 98-11 Report on the Internal
            Controls over GPO’s Pay Parking Program Assets and Transactions by the
            Office of the Comptroller, dated September 8, 1998.

            However, the corrective action taken by the Chief, Cash Management
            Services, did not achieve the implementation of six of the seven OIG
            recommendations made in Audit Report 98-11 concerning the receipt and
            deposit of cash transactions. As a result, the OIG identified the following
            two internal control weaknesses:

            1. Policies and procedures have not been written to improve the internal
               controls concerning the receipt and deposit of cash transactions as
               required by Standard 8 of GPO Instruction 825.18A Internal Control
               Program; and

            2. Annual internal control reviews have not been prepared after the
               October 31, 2002, vulnerability assessment on the Schedule of
               Collections to ensure internal controls were still in effect annually as
               required by paragraphs 9.a. and 9.b. of GPO Instruction 825.18A.


            05-02
            (159)
Page 2

This report reiterates six major recommendations from OIG’s Audit Report
98-11 and contains another related recommendation to improve the internal
controls concerning the receipt and deposit of cash transactions.

The Chief Financial Officer (CFO) concurred and implemented the six major
recommendations that were reiterated from the prior OIG audit report.
However, the CFO disagreed with the seventh recommendation on
performing internal control reviews annually (See Appendix IV).

Mr. Joseph Verch, Supervisory Auditor, and Ms. Patricia Mitchell, Auditor-in-
Charge, conducted this audit. We appreciate the cooperation and
courtesies extended during the audit by the officials and staff of the Office of
the Comptroller’s Cash Management Services.



JOSEPH J. VERCH, JR.
SUPERVISORY AUDITOR




05-02
(159)
 REPORT ON THE FOLLOW-UP AUDIT OF THE CASH MANAGEMENT SERVICES
    CONCERNING THE RECEIPT AND DEPOSIT OF CASH TRANSACTIONS

                                           TABLE OF CONTENTS




RESULTS IN BRIEF .............................................................................................1

BACKGROUND ....................................................................................................3

OBJECTIVES, SCOPE, AND METHODOLOGY................................................. 5

FINDINGS AND RECOMMENDATIONS ..............................................................7

1. WRITTEN POLICIES AND PROCEDURES............................................... …..7

2. ANNUAL INTERNAL CONTROL REVIEWS. ........................................... …..11

APPENDIX I:            OTHER MATTERS DISCUSSED WITH MANAGEMENT…....14

APPENDIX II:           AUDIT REPORT NO. 98-11’S SEVEN RECOMMENDATIONS
                       TO THE COMPTROLLER’S CASH MANAGEMENT
                       SERVICES CONCERNING THE RECEIPT AND DEPOSIT
                       OF CASH TRANSACTIONS…................................................16

APPENDIX III: DISBURSING SECTION’S WORK FLOW CHART………......17

APPENDIX IV: MANAGEMENT’S COMMENTS…………………………..…….19




05-02                                                       i
(159)
                        U.S. Government Printing Office
                        Office of the Inspector General
                                Office of Audits



REPORT ON FOLLOW-UP AUDIT OF THE CASH MANAGEMENT SERVICES
 CONCERNING THE RECEIPT AND DEPOSIT OF CASH TRANSACTIONS

                               RESULTS IN BRIEF




The Government Printing Office (GPO) Office of Inspector General (OIG) has
completed a follow-up audit to determine whether the GPO’s Cash Management
Services (formerly known as the Cash Management Branch) implemented the
seven recommendations that were made concerning the receipt and deposit of
cash transactions in Audit Report No. 98-11 Report on the Internal Controls over
GPO’s Pay Parking Program Assets and Transactions By the Office of the
Comptroller, dated September 8, 1998.

The OIG conducted the follow-up audit from October 2004 through February
2005 and found that the Chief, Cash Management Services, had indeed taken
corrective action to improve the policies and procedures in providing reasonable
assurance and safeguards against waste, loss, and unauthorized access
concerning the receipt and deposit of cash transactions. The OIG concluded that
the Disbursing Officer and the Chief, Accounts Receivable, effectively provided
services and support to both GPO and non-GPO employees.

However, the corrective action taken by the Chief, Cash Management Services,
did not achieve the implementation of six of the seven OIG recommendations
made in Audit Report 98-11 concerning the receipt and deposit of cash
transactions. As a result, the OIG identified the following two internal control
weaknesses:

1. Policies and procedures have not been written to improve the internal controls
   concerning the receipt and deposit of cash transactions as required by
   Standard 8 of GPO Instruction 825.18A Internal Control Program; and

2. Annual internal control reviews have not been prepared since the
   October 31, 2002, vulnerability assessment on the Schedule of Collections to
   ensure internal controls were still in effect annually as required by paragraphs
   9.a. and 9.b. of GPO Instruction 825.18A.


05-02                                    1
(159)
MAJOR RECOMMENDATIONS

To improve the internal controls over the receipt and deposit of cash
transactions, the Comptroller should ensure that the Chief, Cash Management
Services:

1. Develops written policies and procedures to improve the internal controls
   concerning the receipt and deposit of cash transactions as required by GPO
   Instruction 825.18A; and

2. Prepares annual internal control reviews on programs, functions, and
   activities concerning the receipt and deposit of cash transactions as required
   by GPO Instruction 825.18A.

OTHER MATTERS

In addition, the OIG identified five “Other Matters” (See Appendix I) during the
audit and discussed with management officials without any formal
recommendations being made:

1. The Disbursing Officer did not always verify the actual amounts of cash and
   checks received from the Accountant after the lock box contents were
   processed. The Disbursing Officer did match amounts from the register tape
   to what was written in the Windows Collection Log, but a physical count of the
   cash and checks was not always performed;

2. The Disbursing Office employees did not always complete all boxes on the
   payment receipt given to its customers;

3. Cash Management Services’ employees complete the GPO Form 406
   Statement of Collections manually on a typewriter when preparing the deposit
   slip for the bank. It would save time and be more efficient for the form to be
   scanned and made available in an electronic format;

4. The Chief, Accounts Receivable Section, has not developed written policies
   and procedures for determining how long collection actions need to be taken
   before an uncollectible account should be written off. As a result, the Chief
   arbitrarily decides what accounts to collect and not to collect. Some accounts
   go as far back as 1992 and are for only $1 resulting in the customer agency
   using funds from their current fiscal year budget; and

5. Blank and printed treasury checks were sometimes left unattended in an open
   area in front of the Data Systems Office.



05-02                                    2
(159)
                                BACKGROUND


The Cash Management Services is comprised of six sections: (1) Payroll
Section; (2) Disbursing Section; (3) Accounts Receivable; (4) Parking Program;
(5) Travel and Transportation Section and (6) Metrochek Program. The Payroll
Section controls and maintains records for the daily, weekly, and biweekly
processing of data for the biweekly payroll. On September 7, 2003, GPO began
using the U.S. Department of Agriculture’s National Finance Center (NFC) to
handle the human resource and payroll services.

The Disbursing Section is responsible for the proper disbursement of all GPO
funds for commercial printing and miscellaneous payments. In addition, the
Section collects and prepares for deposit monies received for Printing and
Binding invoices, spot sales, bid services, miscellaneous invoices, military
redeposit, lost badges, pay parking, etc., and makes deposits to GPO’s Treasury
account. Other responsibilities include consolidating and issuing the monthly
statement of accountability and transactions for GPO and performing periodic
cash management analyses as required by the Comptroller. Monthly journal
vouchers are also prepared for all cash receipts and disbursements.

The Accounts Receivable Section is responsible for maintaining subsidiary
records for Accounts Receivable and reconciles them to the General Ledger.
The receivable accounts are analyzed and collection actions are determined.
Other responsibilities include preparing journal vouchers for collections and
analyzing accounts receivable, cash, and collections.

The Pay Parking Program was initiated at the direction of the Joint Committee on
Printing to recover costs incurred in providing employee parking facilities and to
encourage employees to carpool. The office is responsible for policy,
procedures, and control for the receipt, accountability, and recording of money
received by the GPO in payment for use of parking facilities maintained by GPO.

The Travel and Transportation Program is responsible for GPO employees
authorized to travel at the Government expense. As administrator of the program
they interpret statutory and other policy requirements in a manner that balances
the need to assure that official travel is conducted in a responsible manner with
the need to minimize administrative costs, and communicate the resulting
policies in a clear manner to its employees. They are responsible for issuing
repayment for all travel expenses incurred.

The Metro Transit Benefit (Subsidy) Program (Metrochek) was implemented in
January 2001 to encourage employees to use mass transportation for commuting


05-02                                   3
(159)
to and from the workplace. The Program currently provides each eligible
participant with up to a $105 transit benefit monthly at no cost to the employee.

The Chief, Cash Management Services, reports directly to the Comptroller.

Cash Management Services:

Manager
Accountant

Payroll Branch

Chief
Cash Management Specialist (2)
Supervisory Civilian Payroll Clerk
Civilian Payroll Clerk (6)

Disbursing Section:

Disbursing Officer (Chief, Disbursing Section)
Deputy Disbursing Officer
Cashier
Imprest Fund Cashier

Accounts Receivable Section:

Chief
Accounting Technician
Cash Management Specialist (4)

Parking Program Office:

Parking Manager

Travel and Transportation:

Chief
Travel and Transportation Assistants (2)

Metro Transit (Benefit) Subsidy Program:

Metrochek Coordinator




05-02                                    4
(159)
                 OBJECTIVES, SCOPE, AND METHODOLOGY


The overall objective of the audit was to determine whether the seven
recommendations concerning the receipt and deposit of cash transactions that
were made to the Comptroller’s Cash Management Services in OIG’s Audit
Report No. 98-11 Report on the Internal Controls over GPO’s Pay Parking
Program Assets and Transactions By the Office of the Comptroller were
implemented. Also, the OIG wanted to determine if the recommendations
actually improved policies and procedures in providing reasonable assurance
and safeguards against waste, loss, and unauthorized access.

Audit fieldwork was conducted during the period of October 2004 through
February 2005 in accordance with Generally Accepted Government Auditing
Standards.

To meet the objectives of the audit, the OIG auditor:

•   Interviewed management officials in Cash Management Services;

•   Obtained Fiscal Year 2004 and 2005 financial reports prepared by Cash
    Management Services that detailed deposits made and a schedule of
    payments prepared;

•   Obtained and reviewed prior audit workpapers, audit recommendations, and
    management’s actions on implementing the recommendations;

•   Interviewed Disbursing Section officials and determined if and how
    recommendations have been implemented;

•   Followed up on Audit Report No. 98-11’s seven recommendations concerning
    the receipt and deposit of cash transactions to ensure implementation (See
    Appendix II);

•   Developed a flow chart of the cash flow process including the identity of all
    Cash Management Services’ employees involved (See Appendix III);

•   Determined Cash Management Services’ employees’ responsibilities and
    observed employees performing their job functions;




05-02                                    5
(159)
•   Tested job functions by selecting a current period (December 2004 to
    January 2005) to ensure that internal controls were practiced and the cash
    received reconciled with the cash deposited; and

•   Developed a flow chart of the work flow for the Disbursing Section (See
    Appendix III).

In the course of our work, we also assessed the susceptibility of various aspects
of the Comptroller’s Cash Management Services to fraud, waste, and abuse. In
addition, we reviewed the following publications and instructions that contained
procedures and policies that Comptroller personnel followed:

•   GPO Instruction 105.1B, CH-16 Organization and Functions of the
    Government Printing Office – Office of Comptroller to identify the current
    responsibilities and functions of the departments within the Office of
    Comptroller;

•   GPO Instruction 710.4 Audit Follow-Up, Resolution, and Management
    Decisions to identify policy, definitions, responsibilities, and procedures for
    audit follow-up and resolution in the GPO;

•   GPO instruction 825.18A Internal Control Program to identify policies,
    standards, responsibilities for conducting internal control reviews of GPO
    programs; and

•   Part 6 of the Treasury Financial Manual to identify the Department of
    Treasury’s policies and procedures regarding deposits of cash and checks to
    a government account.




05-02                                      6
(159)
                    FINDINGS AND RECOMMENDATIONS


                 1. WRITTEN POLICIES AND PROCEDURES

BACKGROUND

In September 1998, the OIG reported weaknesses in the internal controls
concerning the receipt and deposit of cash transactions in the Comptroller’s Cash
Management Services in Audit Report No. 98-11 Report on the Internal Controls
over GPO’s Pay Parking Program Assets and Transactions By the Office of the
Comptroller. In particular, the OIG found:

•   Cash Management Services did not make timely cash deposits;
•   Disbursing Section did not provide adequate separation of duties over the
    handling of cash and checks; and
•   Cash Management Services did not provide the Financial Accounting and
    Reporting Branch with Schedules of Collections during May 1997.

These weaknesses impeded the Office of the Comptroller’s ability to provide
reasonable assurances and safeguards to protect GPO’s assets against waste,
loss, and unauthorized use as directed by GPO Instruction 825.18A Internal
Control Program. As a result, 28 receipts totaling over $35,000 were not
deposited and were missing from the Disbursing Section’s lock box.
The OIG made seven recommendations to improve the internal controls in the
Comptroller’s Cash Management Services concerning the receipt and deposit of
cash transactions in Audit Report No. 98-11. (See Appendix II.) Six of the seven
recommendations required policies and procedures to be developed and written
for Cash Management Services’ employees to follow. The Comptroller replied in
his September 1, 1998, memorandum to the audit report that “…policies and
procedures are in the process of being written.”

FINDING

An OIG review of the corrective actions taken by the Comptroller, as a result of
Audit Report No. 98-11, showed that no policies or procedures have been written
to improve the internal controls in providing reasonable assurance and
safeguards against waste, loss, and unauthorized access concerning the receipt
and deposit of cash transactions in the Cash Management Services, contrary to
Standard 8 of GPO Instruction 825.18A:




05-02                                   7
(159)
        “Managers should promptly evaluate and determine proper actions in
        response to known deficiencies, reported audit and other findings, and
        related recommendations. Managers should complete, within established
        time frames, all actions that correct or otherwise resolve the appropriate
        matters brought to management’s attention.”

The OIG auditor performed the following tests and found that while no formal
written policies or procedures were prepared, corrective action had indeed been
taken to institute the policies and procedures in providing reasonable assurance
and safeguards against waste, loss, and unauthorized access concerning the
receipt and deposit of cash transactions in the Cash Management Services:

1. A review of the Window Collections Log for the period of August 27, 2004,
   through November 24, 2004, found that deposits were made timely,
   averaging every 2 weeks. This is an improvement from the 1998 audit that
   found deposits were made from 2 weeks to more than 3 months. As a result,
   corrective action has been taken on making timely deposits of cash in
   implementing OIG’s Recommendation No. 9811-01.

2. A “surprise” cash count was performed on January 12, 2005, and the results
   showed that the 22 receipts reconciled with the $12,243.63 in the lock box.
   As a result, corrective action has been taken on protecting cash kept in the
   lock box in implementing OIG’s Recommendation No. 9811-02.

3. A review of the Schedule of Collections for the period of June 28, 2004,
   through December 15, 2004, showed that the Schedule contained the
   Accountant’s initials as the preparer and the Deputy’s initials as the verifier of
   the collections. As a result, corrective action has been taken in the
   separation of duties in the deposits of cash in implementing OIG’s
   Recommendation No. 9811-03.

4. A review of the Window Collections Log for the period of August 27, 2004,
   through November 24, 2004, found that the receipt of cash and checks
   usually ranged under $25, as posted at the Disbursing Window. The OIG
   auditor did find 10 of 150 instances or 7 percent from the Log where more
   than $25 was received, ranging from $26 to $60. As a result, corrective
   action has been taken to restrict the amount of cash received at any one time
   in implementing OIG’s Recommendation No. 9811-04.

5. A review of the Disbursing Officer Cash Flow showed for the period of
   June 28, 2004, through December 15, 2004, there was a separation of duties
   in preparing the deposit tickets by the Impress Fund Cashier and having
   custody of the cash received at the Disbursing Window by the Cashier. As a



05-02                                     8
(159)
    result, corrective action has been taken to separate duties in implementing
    OIG’s Recommendation No. 9811-05.

6. A review was performed on the amount reported on the pink receipts kept in
   the Disbursing Window’s Receipt Books and the deposits made for the period
   of August 26, 2004, through November 24, 2004. A total of $41,115.21 was
   collected and reconciled with the cash deposits. As a result, corrective action
   has been taken to reconcile cash deposits with pink receipts in implementing
   OIG’s Recommendation No. 9811-06.

7. A review of the Schedule of Collections for the period of August 26, 2004,
   through November 18, 2004, showed that the Schedules were issued on a
   timely basis to the Financial Accounting and Reporting Branch to ensure that
   all financial reports were current, accurate, and reliable. As a result,
   corrective action has been taken to accurately issue financial reports in
   implementing OIG’s Recommendation No. 9811-10.

Cash Management Services’ officials in the Disbursing Section have begun
writing policies and procedures in three areas: (1) Collections;
(2) Disbursements; and (3) Electronic Funds Transfer.

RECOMMENDATIONS

The Comptroller should ensure that the Chief, Cash Management Services:

•   Develops written policies and procedures to ensure the timely deposit of cash
    as required by CH-2 of GPO Publication 435.1 and Section 8030.20 of The
    Treasury Financial Manual (0502-01);

•   Develops written policies and procedures to protect the cash kept in the lock
    box (0502-02);

•   Develops written policies and procedures to prepare a report after each cash
    deposit is made to document who prepared and verified each deposit
    (0502-03);

•   Develops written policies and procedures to restrict the amount of cash that
    the Disbursing Window can accept at any one time (0502-04);

•   Develops written policies and procedures to separate the duties of preparing
    the deposit tickets and having custody of the cash received at the Disbursing
    Window (0502-05); and




05-02                                    9
(159)
•   Develops written policies and procedures to reconcile the cash deposits to the
    pink receipts kept in the Disbursing Window’s Receipt Books and reconcile
    any differences immediately (0502-06).

MANAGEMENT COMMENTS

The CFO agreed with the finding and has implemented the six recommendations
(See Appendix IV).




05-02                                   10
(159)
                  2. ANNUAL INTERNAL CONTROL REVIEWS

BACKGROUND

In May 1997 GPO Instruction 825.18A Internal Control Program identified the
Public Printer as responsible for ensuring that an effective internal control
structure be established and maintained by GPO’s managers for all programs,
functions, and activities. The Deputy Public Printer was made responsible for
ensuring that all vulnerability assessments and annual internal control reviews
were performed as prescribed by paragraph 7.b. of GPO Instruction 825.18A.

The Inspector General annually forwards a letter of compliance to the Public
Printer which identifies the results of the annual review for completeness of all
vulnerability assessments and internal control reviews that were received from all
GPO offices as required by paragraph 7.c. of GPO Instruction 825.18A.

On October 31, 2002, the Chief, Cash Management Services, performed a
vulnerability assessment on the functions of collecting and depositing cash and
checks under the title of Schedule of Collections as required by paragraph 9.a. of
GPO Instruction 825.18A:

        “Vulnerability Assessment. This assessment refers to the review of GPO’s
        overall general control environment, established in a framework in which
        the internal controls are implemented. The assessment of risks must
        begin at the broadest level possible, wherein the reviewers gain an
        understanding of management’s total control environment and are then
        able to gauge the appropriate level of required detailed testing during the
        actual internal control reviews. The vulnerability assessment, or general
        risk analysis, should be able to identify those operating programs,
        functions, and activities that are more susceptible to material internal
        control weaknesses. The result of this assessment should be the basis for
        formulating a detailed control review plan.”

The Schedule of Collections is a listing of cash or checks received directly or by
mail in Cash Management Services’ Disbursing Section. The listing includes
payments for items such as lost badges, GPO Pay Parking Program fees, debt
collections, and other miscellaneous collections. The Chief concluded from the
vulnerability assessment that the internal controls in effect for the Schedule of
Collections provided reasonable assurance that the process was accurate and a
separation of duties existed.




05-02                                   11
(159)
FINDING

The Chief, Cash Management Services, has not prepared any annual internal
control reviews since the October 31, 2002, vulnerability assessment on the
Schedule of Collections to ensure internal controls were still in effect annually as
required by paragraphs 9.a. and 9.b. of GPO Instruction 825.18A:

        “Internal Control Review. The review entails various steps which include
        studying the normal flow of a particular category of events, analyzing
        specific risk factors associated with the events, performing actual control
        tests to ensure events are handled properly, recommending corrective
        action for known internal control deficiency, and modifying the existing
        controls if necessary.” (Paragraph 9.b.)

The seven control tests that the OIG auditor performed in Finding I of this report
are examples of the control tests that can be performed annually by the Chief to
ensure internal controls concerning the receipt and deposit of cash transactions
were still in effect. Performing these tests would be a good beginning for
establishing an Internal Control Program for the Cash Management Services as
directed by Paragraph 7.d. of GPO Instruction 825.18A:

        “Department, Service, Staff, and Office heads are responsible for the
        development and maintenance of internal controls within their respective
        programs, functions, and activities, to prevent or deter the loss or abuse of
        public assets. The compliance with and effectiveness of internal controls
        must be regularly monitored. Supervisors must be knowledgeable of the
        internal controls of their units, and as part of their routine duties, must
        insure that the controls are operating as designed and are achieving their
        intended purpose.”

RECOMMENDATION

The Comptroller should ensure that the Chief, Cash Management Services,
prepares annual internal control reviews on programs, functions, and activities
concerning the receipt and deposit of cash transactions as required by GPO
Instruction 825.18A (0502-07).

MANAGEMENT COMMENTS

The Chief Financial Officer (CFO) agreed with the finding but disagreed with the
recommendation. The CFO believes the external auditors, KPMG LLP (KPMG),
who audit GPO’s financial statements annually are performing internal control
reviews. As a result, the external auditors satisfy the Cash Management



05-02                                    12
(159)
Services’ requirements of GPO Instruction 825.18a in performing internal control
reviews (See Appendix IV).

OIG COMMENTS

The OIG does not agree with the CFO’s assessment that external auditors can
satisfy the Cash Management Services’ requirements of GPO Instruction
825.18A in performing internal control reviews during the annual audit of GPO’s
financial statements. The OIG’s position is based on our interpretation of the
following:

1. On Page 20 of Government Accountability Office’s (GAO) Standards for
   Internal Control in the Federal Government under the title “Monitoring” it
   states:

        “Internal control should generally be designed to assure that
        ongoing monitoring occurs in the course of normal operations…It
        includes regular management and supervisory activities,
        comparisons, reconciliations, and other actions people take in
        performing their duties.

        Separate evaluations of control can also be useful by focusing
        directly on the controls’ effectiveness at a specific time…Separate
        evaluations may take the form of self-assessments as well as
        review of control design and direct testing of internal control.
        Separate evaluations also may be performed by the agency
        Inspector General or an external auditor….”

2. On Page 1 of KPMG’s November 10, 2005, Management Letter to GPO it
   states:

        “We have audited the consolidated financial statements of the United
        States Government Printing Office (GPO) as of September 30, 2004, and
        have issued our report thereon dated November 10, 2004…An audit does
        not include examining the effectiveness of internal control and does not
        provide assurance on internal control. We have not considered internal
        control since the date of our report.

        …Our audit procedures were designed primarily to enable us to form an
        opinion on GPO’s consolidated financial statements, and therefore, may
        not bring to light all weaknesses in policies or procedures that may exist.”




05-02                                    13
(159)
                                                                      APPENDIX I
                                                                      Page 1 of 3

             OTHER MATTERS DISCUSSED WITH MANAGEMENT

1. The Disbursing Officer did not always verify the amounts received from the
   Accountant after the lock box contents were processed. During our
   observation on December 2, 2004, the Disbursing Officer was given cash
   payments in the amount of $12 and checks totaling $3,026.62 (total payment
   of $3,038.62) that was processed by the Accountant from the lock box for
   verification. It is the responsibility of the Disbursing Officer to verify the
   amounts that are recorded into the Window Collections Log. The Disbursing
   Officer did match amounts from the register tape to what was written in the
   Log, but a physical count of the cash and checks was not always performed,
   contrary to Standard 2 of GPO Instruction 825.18A:

        “Management controls must provide reasonable assurance and
        safeguards to protect assets against waste, loss, unauthorized use, and
        misappropriation.”

2. Disbursing Office’s employees did not always complete the box identifying the
   form of payment on GPO Form 304 Receipt Government Printing Office and
   Office of the Comptroller. This payment Receipt is given to its customers.
   During our “surprise” cash box count on January 12, 2005, the OIG auditor
   found that one payment was labeled as cash on the Receipt; however, it was
    actually a check. A further review of the Receipt book for the period of
   August 26, 2004, through November 24, 2004, found 19 of the 162 receipts or
   12 percent did not have the proper box checked to identify the method of
   payment for the receipt numbers 34101–34262. The Disbursing Officer was
   made aware of the errors and stated that this was not a problem since the
   monies would be reconciled. Better controls are needed to prevent the
   manipulation of funds in the lock box in compliance with Standard 7 of GPO
   Instruction 825.18A:

           “Transactions should be promptly recorded, properly classified, and
           accounted for in order to prepare timely accounts and reliable financial
           and other reports.”

3. GPO Form 406 Statement of Collections is used to prepare the deposit slip
   that goes to the bank. The OIG auditor observed the clerk had to leave her
   desk and go to a manual typewriter to complete this form. It would save time




05-02                                   14
(159)
                                                                       APPENDIX I
                                                                       Page 2 of 3

   and be more efficient if the form was scanned and made available
   electronically in compliance with Standard 1 of GPO Instruction 825.18A:

          “…Resources should be efficiently and effectively allocated for duly
          authorized purposes.”

4. The Accounts Receivable Section is responsible for analyzing receivable
   accounts, determining collection actions, and writing uncollectible accounts
   off. However, the Chief, Accounts Receivable Section, has not developed
   written policies and procedures for determining how long collection actions
   need to be taken before an uncollectible account should be written off. As a
   result, the Chief arbitrarily decides what accounts to collect and not to collect.
   Some accounts go as far back as 1992 and are for only $1 resulting in the
   customer agency using funds from their current fiscal year budget. The
   accounts need to be purged and policies and procedures need to be written
   and followed to ensure that all customer agencies are treated fairly and to
   prevent the possibility of preferential treatment in the collection of receivable
   accounts in accordance with Standard 2 of GPO Instruction 825.18A:

          “…Management controls developed for agency programs should be
          logical, applicable, reasonably complete, and effective and efficient in
          accomplishing management objectives.”

5. Proper handling of blank and printed treasury checks was not always done by
   Data Systems. On December 14, 2004, the OIG auditor observed the daily
   duties of the Deputy Disbursing Officer which included the printing of
   Treasury checks. The blank checks are kept in the custody of the Disbursing
   Office and are carried to the Data Systems Office to be printed, usually in the
   morning. The Deputy picks up the checks after the printing has been
   completed. The OIG auditor noticed that the checks were left unattended in
   an open area in the front of the Data Systems Office where anyone could
   have picked them up, contrary to Standard 6 of GPO Instruction 825.18A:

          “Access to resources and records should be limited to authorized
          individuals and accountability for the custody and use of resources
          should be assigned and maintained.”




05-02                                    15
(159)
                                                                    APPENDIX II
                                                                    Page 1 of 1

   AUDIT REPORT NO. 98-11’S SEVEN RECOMMENDATIONS TO THE
 COMPTROLLER’S CASH MANAGEMENT SERVICES CONCERNING THE
         RECEIPT AND DEPOSIT OF CASH TRANSACTIONS

                                   Recommendations

    No.      The Chief, Cash Management Services, should:
    01       Develop and implement written policies and procedures to
             ensure the timely deposits of cash as required by CH-2 of GPO
             Publication 435.1 and Section 8030.20 of The Treasury
             Financial Manual (9811-01).
        02   Develop written policies and procedures to protect the cash kept
             in the lock box (9811-02).
        03   Develop written policies and procedures to prepare a report
             after each cash deposit is made to document who prepared and
             verified each deposit (9811-03).
        04   Develop written policies and procedures to restrict the amount of
             cash that the Disbursing Window can accept at any one time
             (9811-04).
        05   Develop written policies and procedures to separate the duties
             of preparing the deposit tickets and having custody of the cash
             received at the Disbursing Window (9811-05).
        06   Develop written policies and procedures to reconcile the cash
             deposits to the pink receipts kept in the Disbursing Window’s
             Receipt Books and reconcile any differences immediately
             (9811-06).
        07   Ensure Financial Accounting and Reporting Branch receives
             Schedules of Collections timely so that the General Ledger and
             all financial reports can be current, accurate, and reliable
             (9811-10).




05-02                                   16
(159)
                                                                               APPENDIX III
                                                                               Page 1 of 2

                 DISBURSING SECTION’S WORK FLOW CHART



                                                          Attached
   Customer                                              to the cash
                                                         and placed
                                                         in the Lock
                                                             Box




     Cash


                                                       Placed in a safe




                                                 Prepares the deposit slip &
    Prepares
                                                  Schedules of Collections
   three cash
    receipts




                                   Deposit Slip
                                       2                                  Schedules of
                                                                          Collections 2
                                   Deposit Slip
                                       1                                  Schedules of
  Cash Receipt                                                            Collections 1
       3

  Cash Receipt
       2

  Cash Receipt                                                              To A/R
       1                               To Bank
                                                                             Clerk




                                                        Filed in the
  To Customer                                          Statement of
                                                      Accountability &
                                                       Transactions




05-02                             17
(159)
                                                                    APPENDIX III
                                                                    Page 2 of 2

When a payment is received at the Disbursing window for parking, badges, spot
sales, bid services, military redeposit and miscellaneous invoices, the cashier
takes the payment and records the payment in a receipt book. The carbon copy
receipt contains three copies: (1) white – customer copy; (2) yellow – GPO
retention; and (3) pink – disbursing files. The yellow copy stays with the cash or
check and the pink remains in the book for reference if needed. All receipts are
numbered and written in sequence. If a mistake is made the receipt is voided
and left inside the book.

From the above transactions along with the Treasury and Commercial deposits,
a Statement of Collections and a Schedule of Collections are prepared and
forwarded to the Accounts Receivable Office. When the documents are received
they are verified for the correct purpose fund and credit code. Codes are pulled
from the Collections Classifications sheet that gives the purpose, object class,
and cost code. This is done to ensure that monies have been credited to the
correct account.

The Statement of Collections should match the tape received. Checks and
invoices should match with payments made. Monthly batching of work is
performed to verify amounts. After verification is done, a copy is forwarded to the
Comptroller’s Office and a copy retained in the Accounts Receivable Section.
Records are held for 3 years.




05-02                                   18
(159)
